I

NOT RECOMMENDED FOR PUBLICATION
Nos. 19-1566/1714
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JANE DOE,

May 06, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)

Plaintiff-Appellant,
v.
BEN CARSON, as Executive Director, U.S.
Department of Housing and Urban Development, et
al.,
Defendants-Appellees.

FILED

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

)
)
)

ORDER

Before: SUTTON, McKEAGUE, and NAL BAND IAN, Circuit Judges.

Jane Doe, a Michigan litigant proceeding pro se, appeals the district court’s orders denying
her motion to amend her complaint and denying her motion to retain her anonymity. This case has
been referred to a panel of the court that, upon examination, unanimously agrees that oral argument
is not needed. See Fed. R. App. P. 34(a).
Doe filed a complaint against Ben Carson as Executive Director of the United States
Department of Housing and Urban Development, Earl Poleski as Executive Director of the
Michigan State Housing Development Authority, the United States, and the United States
Attorney, claiming disability discrimination in violation of the Rehabilitation Act and the
Americans with Disabilities Act with respect to her participation in the housing voucher program.
Doe alleged that she is a qualified individual with a disability and that her disability is “brain
dysfunction” or “mental illness.”

i

Nos. 19-1566/1714
-2-

Doe subsequently filed an amendment to her complaint. Doe then filed a motion to further
amend her complaint and for appointment of counsel and a motion to retain her anonymity. A
magistrate judge denied Doe’s motion to amend her complaint and for appointment of counsel.
With respect to Doe’s motion to retain her anonymity, the magistrate judge recommended that
Doe’s motion be denied and that the case be dismissed if she failed to amend her complaint to
identify herself by her legal name. Over Doe’s objection, the district court adopted the magistrate
judge’s report and recommendation, denied Doe’s motion to retain her anonymity, and ordered
Doe to file an amended complaint identifying herself within twenty-one days. Doe filed a notice
of appeal (No. 19-1566). To the extent that Doe’s interlocutory appeal could be construed as an
appeal to the district court from the magistrate judge’s order denying her motion to amend her
complaint and for appointment of counsel, the district court denied her appeal. Because Doe did
not file an amended complaint identifying herself within twenty-one days, the district court
dismissed her case. Doe filed another notice of appeal (No. 19-1714).
On appeal. Doe challenges the denial of her motion to amend her complaint and the denial
of her motion to retain her anonymity. Doe moves this court for assignment to a new judge if this
case is remanded to the district court.
The district court denied Doe’s motion to further amend her complaint because she failed
to submit a proposed amended complaint. Doe argues on appeal that providing a copy of her
amended complaint in advance would be “very arduous and expensive” and that “going through
the effort only to have it rejected would be very difficult.” Federal Rule of Civil Procedure 15(a)(2)
provides that the district court “should freely give leave [to amend] when justice so requires.”
However, “the district court must be able to determine whether ‘justice so requires,’ and in order
to do this, the court must have before it the substance of the proposed amendment.” Roskam
Baking Co. v. Lanham Mach. Co., 288 F.3d 895, 906 (6th Cir. 2002). Because Doe did not submit
her proposed amended complaint, merely asserting in her motion to amend that the. defendants had
other statutory duties falling outside disability law, the district court did not abuse its discretion in
denying her motion. See id. at 906-07.

i

Nos. 19-1566/1714
-3 The district court denied Doe’s motion to retain her anonymity and subsequently dismissed
her case when she failed to file an amended complaint identifying herself. We review the district
court’s denial of Doe’s motion to retain her anonymity for abuse of discretion. See D.E. v. Doe,
834 F.3d 723, 728 (6th Cir. 2016).
“As a general matter, a complaint must state the names of all parties.” Doe v. Porter, 370
F.3d 558, 560 (6th Cir. 2004) (citing Fed. R. Civ. P. 10(a)).

“Under certain circumstances,

however, the district court may allow a plaintiff to proceed under a pseudonym by granting a
protective order.” D.E., 834 F.3d at 728. “It is the exceptional case in which a plaintiff may
proceed under a fictitious name.” Doe v. Frank, 951 F.2d 320, 323 (11th Cir. 1992) (per curiam).
In determining “whether a plaintiffs privacy interests substantially outweigh the presumption of
open judicial proceedings,” courts consider:
(1) whether the plaintiffs seeking anonymity are suing to challenge governmental
activity; (2) whether prosecution of the suit will compel the plaintiffs to disclose
information “of the utmost intimacy”; (3) whether the litigation compels plaintiffs
to disclose an intention to violate the law, thereby risking criminal prosecution; and
(4) whether the plaintiffs are children.
Porter, 370 F.3d at 560 (citing Doe v. Stegall., 653 F.2d 180, 185-86 (5th Cir. 1981)).
In her motion to retain her anonymity, Doe acknowledged that the defendants must know
her identity to respond to her complaint, but asked that the district court permanently seal
information about her identity and that the defendants be prohibited from “publishing” information
about her identity or the nature of her medical issues. Doe asserted: “Revealing medical diagnoses
of brain disorders and the effects thereof of any person relevant to their mental health renders an
individual subject to fear, paranoia, ridicule and intimidation due to the public’s inadequate
understanding and false negative assumptions of the true nature of unseen disabilities.”
In recommending that Doe’s motion be denied, the magistrate judge noted that she
“arguably” challenged governmental activity but found that none of the other Porter factors
weighed in favor of her request. The magistrate judge was unpersuaded that pursuit of her claims
would compel Doe to disclose information “of the utmost intimacy.” Although the magistrate

Nos. 19-1566/1714
-4judge sympathized with Doe’s desire to maintain privacy with respect to her medical impairments
and treatment, the magistrate judge stated that she could request submission of her medical records
under seal. Doe objected to the magistrate judge’s report and recommendation, asserting that “the
stigma of mental illness is one of the worst ones in society,” that the submission of medical records
under seal would not avoid “revealing the fact of mental illness which is the main subject of every
section of the complaint,” and that she would “never be able to work again if the court insists on
putting a permanent record on the internet of this illness in her real name.”
The district court adopted the magistrate judge’s report and recommendation and denied
Doe’s motion to retain her anonymity. The district court agreed with the magistrate judge that
“concerns about stigma and scrutiny from prospective employers do not involve information ‘of
the utmost intimacy’; rather, they constitute the type of concerns harbored by other similarly
situated litigants who file lawsuits under their real names.” The district court pointed out that,
even assuming that Doe satisfied the second factor, that factor was not dispositive. According to
the district court, Doe failed to demonstrate any error in the magistrate judge’s ultimate conclusion
that all four Porter factors, considered together, did not establish exceptional circumstances to
warrant an exception from the general rule under Rule 10(a) that a plaintiffs complaint “must
name all the parties.”
The district court, having considered the relevant factors in determining that Doe failed to
establish exceptional circumstances to overcome the presumption of open judicial proceedings,
did not abuse its discretion in denying her motion to retain her anonymity. Doe asserted that
Congress, in enacting the Americans with Disabilities Act, recognized the discrimination and
prejudice faced by persons with disabilities and that “the stigma of mental illness is one of the
worst ones in society.” But Doe failed to identify any exceptional circumstances distinguishing
her case from other cases brought by plaintiffs claiming disability discrimination who suffer from
mental illness. As Doe acknowledged in her motion, “[tjhis decision affects Doe and any victim
of disability discrimination likewise situated.” Nor did Doe identify any specific harm arising
from disclosure of her identity. Doe, who alleged in her complaint that she is completely disabled
and unable to work, speculated that she would “never be able to work again” if the district court

Nos. 19-1566/1714
-5 required her identification. In the case cited by Doe, Doe v. Sessions, No. 18-0004, 2018 WL
4637014 (D.D.C. Sept. 27, 2018), the plaintiff alleged that the defendants humiliated and harassed
him based on his sensitive mental conditions, which he had kept confidential for twenty-five years,
and asserted that public identification would cause him to be traumatized again. Id. at *4. Unlike
the plaintiff in that case, Doe did not assert any harassment by the defendants or claim any potential
exacerbation of her mental illness.
Doe argues on appeal that she has a First Amendment right to petition for the redress of
grievances without roadblocks keeping her from exercising that right. Because any lawsuit against
the government would implicate the First Amendment right to petition for redress of grievances,
Doe’s argument fails to show exceptional circumstances warranting the use of a pseudonym. Doe
also contends that statutes such as the Freedom of Information Act and the Flealth Insurance
Portability and Accountability Act provide for the protection of private medical information.
Although these laws support the nondisclosure of medical records, they do not entitle Doe to
litigate under a pseudonym.
The district court did not abuse its discretion in determining that Doe’s case did not present
exceptional circumstances to excuse her from Rule 10(a)’s requirement that a plaintiffs complaint
“must name all the parties.” Doe does not challenge the district court’s subsequent dismissal of
her case for failure to file an amended complaint identifying herself. Regardless, because the
district court did not abuse its discretion in denying Doe’s motion to retain her anonymity, the
district court properly dismissed her case based on her failure to comply with Rule 10(a) by filing
an amended complaint identifying herself. See Doe v. Kamehameha Sch./Bernice Pauahi Bishop
Estate, 596 F.3d 1036, 1046 (9th Cir. 2010) (affirming dismissal of case based on the plaintiffs’
failure to disclose their identities).

Nos. 19-1566/1714
-6For these reasons, we AFFIRM the district court’s orders and DENY Doe’s motion for
assignment to a new judge as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Doe v. Carson, Slip Copy (2019)

WIT. it i

©2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Doe v, Carson, Slip Copy (2019)

KevCite Blue Flag - Appeal Notification
Appeal Filed by JANE DOF v. BF.N CAB SON. FT Al„ 6th Cir.: May 22, 2019

2019 WL1978428
Only the Westlaw citation is currently available.
United States District Court, W.D. Michigan, Southern Division.
Jane DOE, Plaintiff,
v.
Ben CARSON, et al., Defendants.
Case No. i:i8-cv-i23i
Signed 05/03/2019

Attorneys and Law Firms
Jane Doe, Grand Rapids, MI, pro se.
Jeanne Frances Long. U.S. Attorney, Grand Rapids, MI, Erik Aiwvn Granev. Michigan Department of Attorney General,
Lansing, MI, for Defendants.

OPINION AND ORDER
JANET T. NEFF. United States District Judge
*1 The matter is presently before the Court on Plaintiffs objections to the Magistrate Judge’s Report and Recommendation,
recommending that this Court deny Plaintiffs Motion to Retain Anonymity. The Magistrate Judge further recommends that
Plaintiff either amend her complaint to properly identify herself or this action be dismissed for lack of jurisdiction. In
accordance with 28 U.S.C, $ 636rb)n~) and FED.R.CIV.P. 72tbV3’). the Court has performed de novo consideration of those
portions of the Report and Recommendation to which objections have been made. The Court denies the objections and issues
this Opinion and Order.
Plaintiff s objections concern the second factor that courts consider in determining whether a plaintiff should be permitted to
prosecute an action anonymously, to wit: whether prosecution of the action will compel the plaintiff to disclose information “of
the utmost intimacy.” Plaintiff argues that in considering this factor, the Magistrate Judge did not adequately weigh the stigma
of mental illness (PI. Obj., ECF No. 26 at PageID.120). Plaintiff argues that merely submitting her medical records under seal,
as the Magistrate Judge suggested, does not sufficiently accommodate her disability(;d.). According to Plaintiff, she will
“never be able to work again if the court insists on putting a pennanent record on the internet of this illness in her real name”
(id. at PageID.121).
Plaintiffs argument demonstrates her disagreement with the manner in which the Magistrate Judge weighed the second factor,
but Plaintiff s argument fails to demonstrate any factual or legal error by the Magistrate Judge. The Court agrees with the
Magistrate Judge that concerns about stigma and scrutiny from prospective employers do not involve information “of the

(

utmost intimacy”; rather, they constitute the type of concerns harbored by other similarly situated litigants who file lawsuits
under their real names. Further, even assuming arguendo that Plaintiff satisfied the second factor, the second factor is not
dispositive. Plaintiffs argument fails to demonstrate any error in the Magistrate Judge’s ultimate conclusion that all four
factors, considered together, do not demonstrate the exceptional circumstances necessary to remove this case from the general
rule requiring that a plaintiff s complaint “must name all the parties.” Therefore, the Court, in its discretion and consistent with
the Magistrate Judge’s recommendation, will deny Plaintiffs motion and require Plaintiff to file an Amended Complaint to
properly identify herself in compliance with Federal Rule of Civil Procedure IQta'i or this action will be dismissed for lack of
jurisdiction. Accordingly:
IT IS HEREBY ORDERED that the Objections (ECF No. 26) are DENIED and the Report and Recommendation of the
Magistrate Judge (ECF No. 20) is APPROVED and ADOPTED as the Opinion of the Court.
IT IS FURTHER ORDERED that Plaintiffs Motion to Retain Anonymity (ECF No. 12) is DENIED for the reasons stated in
the Report and Recommendation.
*2 IT IS FURTHER ORDERED that if Plaintiff fails to amend her complaint to identify herself by her legal name within
twenty-one (21) days after entry of this Opinion and Order, then this matter will be dismissed for lack of jurisdiction.
All Citations
Slip Copy, 2019 WL 1978428
Vi: t! ; !■© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Doe v. Carson, Slip Copy (2019)

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Doe v. Carson, Slip Copy (2019)
2019 WL 1981886

WESTIAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Doe v. Carson, Slip Copy (2019)
2019 WL 1981886

2019 WL 1981886
Only the Westlaw citation is currently available.
United States District Court, W.D. Michigan, Southern Division.
Jane DOE, Plaintiff,
v.
Ben CARSON, et al., Defendants.
Case No. i:i8-cv-1231
Signed 01/04/2019
Attorneys and Law Firms
Jane Doe, Grand Rapids, MI, pro se.
Jeanne Frances Long. U.S. Attorney, Grand Rapids, MI, Erik Alwvn Granev. Michigan Department of Attorney General,
Lansing, MI, for Defendants.

REPORT AND RECOMMENDATION
ELLEN S. CARMODY. U.S. Magistrate Judge
*1 This matter is before the Court on Plaintiffs Motion to Retain Anonymity (ECF No. 12). Plaintiff initiated this action
against: (1) Ben Carson, Executive Director of the United States Department of Housing and Urban Development; (2) Earl
Poleski, Executive Director of the Michigan State Housing Development Authority; and (3) the United States of America.
Plaintiff alleges violations of the Americans with Disabilities Act (ADA) with respect to her attempts to obtain government
subsidized housing. Plaintiff now moves to be permitted to proceed in this matter anonymously. Pursuant to 28 U.S.C. 6 636fbi
(1)(T3). the undersigned recommends that Plaintiffs motion be denied and, furthermore, that Plaintiff either amend her
complaint to properly identify herself or this action be dismissed for lack of jurisdiction.
The Federal Rules of Civil Procedure expressly require that “the complaint must name all the parties.” Fed. R. Civ. P. lQfaf:
see also, Ericksen v. United States, 2017 WL 264499 at *1 fE.D, Mich,, Jan. 20. 20171 (“[t]he public disclosure of the
identities of parties in a lawsuit is required by Federal Rule of Civil Procedure IQfaVT. Plaintiffs are permitted to proceed
anonymously only in exceptional circumstances. See, e.g., Citizens for a Strong Ohio v. Marsh. 123 Fed. Appx. 630. 636 C6th
Cir„ Jan. 3. 2005). When considering whether a plaintiff should be permitted to prosecute an action anonymously, the Court
considers factors such as: (1) whether the plaintiff is challenging governmental activity; (2) whether prosecution of the action
will compel plaintiff to disclose information “of the utmost intimacy”; (3) whether the litigation compels plaintiff to disclose
an intention to violate the law, thereby risking criminal prosecution; and (4) whether plaintiff is a minor. See Doe v. Porter
370 F.3d 558. 560 16th Cir. 20041.

plaintiff s case, because., .the federal courts lack jurisdiction over die unnamed parties, as a case has not been commenced with
respect to them”). While Defendants have not expressed any objection to Plaintiff proceeding anonymously, the Court
nevertheless has an obligation to address the matter given diat it affects the Court’s jurisdiction.
While Plaintiff is arguably challenging government activity, none of the other factors weigh in favor of her request. The second
factor, whether prosecution of the action will compel Plaintiff to disclose information “of the utmost intimacy,” concerns
“matters of a sensitive and highly personal nature, such as birth control, abortion, homosexuality or the welfare rights of
illegitimate children or abandoned families.” G.KG. v. Shimeki. 2012 WL 381589 at *2 tW.D. Mich.. Feb. 6. 2012V While
Plaintiff repeatedly asserts the conclusion that her free speech rights will be chilled if she is required to pursue this action
openly, she fails to persuade the Court that pursuit of her claims will compel Plaintiff to reveal information “of die utmost
intimacy.”
*2 The Court recognizes that prosecution of this action appears to implicate Plaintiff’s medical condition and/or treatment.
While the Court is sympathetic to Plaintiff’s desire to maintain a certain level of privacy vis-a-vis her medical impairments
and/or treatment, Plaintiff can request that such records be submitted to the Court under seal pursuant to Local Rule of Civil
Procedure 10. Accordingly, this factor weighs against Plaintiffs request. The final two factors both weigh against Plaintiffs
request as neither are applicable to Plaintiff’s circumstance.

CONCLUSION
In sum, consideration of tire relevant factors weighs against Plaintiff’s request to proceed anonymously. Accordingly, the
undersigned recommends that Plaintiff’s Motion to Retain Anonvmilv. (ECF No. 12), be denied. The undersigned further
recommends that if Plaintiff fails to amend her complaint, to identify herself by her legal name, within twenty-one (21)
days after the adoption of the aforementioned recommendation, that this matter be dismissed for lack of jurisdiction.
OBJECTIONS to this Report and Recommendation must be filed with the Clerk of Court within fourteen (14) days of the date
of sendee of this notice. 28 U.S.C. § 636(b)(1)(C). Failure to file objections within the specified time waives the right to appeal
the District Court’s order. See Thomas v. Am. 474 U.S. 140 (19851: United States v. Walters. 638 F.2d 947 (6th Cir.19811.
All Citations
Slip Copy, 2019 WL 1981886
WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Doe v. Carson, Slip Copy (2019)
2019 WL 1981886
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Case l:18-cv-01231-JTN-ESC ECF No. 20, PagelD.105 Filed 01/04/19 Page 1 of 3

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

JANE DOE,
Plaintiff,
v.

Hon. Janet T. Neff
Case No. l:18-cv-1231

BEN CARSON, et al.,
Defendants.

REPORT AND RECOMMENDATION
This matter is before the Court on Plaintiffs Motion to Retain Anonymity. (ECF No.
12). Plaintiff initiated this action against: (1) Ben Carson, Executive Director of the United States
Department of Housing and Urban Development; (2) Earl Poleski, Executive Director of the Michigan
State Housing Development Authority; and (3) the United States of America.

Plaintiff alleges

violations of the Americans with Disabilities Act (ADA) with respect to her attempts to obtain
government subsidized housing. Plaintiff now moves to be permitted to proceed in this matter
anonymously. Pursuant to 28 U.S.C. § 636(b)(1)(B), the undersigned recommends that Plaintiffs
motion be denied and, furthermore, that Plaintiff either amend her complaint to properly identify
herself or this action be dismissed for lack of jurisdiction.
The Federal Rules of Civil Procedure expressly require that “the complaint must name
all the parties.” Fed. R. Civ. P. 10(a); see also, Ericksen v. United States, 2017 WL 264499 at *1
(E.D. Mich., Jan. 20, 2017) (“[t]he public disclosure of the identities of parties in a lawsuit is required
by Federal Rule of Civil Procedure 10(a)”). Plaintiffs are permitted to proceed anonymously only in
exceptional circumstances. See, e.g., Citizens for a Strong Ohio v. Marsh, 123 Fed. Appx. 630, 636

Case l:18-cv-01231-JTN-ESC ECF No. 20, PagelD.106 Filed 01/04/19 Page 2 of 3

(6th Cir., Jan. 3, 2005). When considering whether a plaintiff should be permitted to prosecute an
action anonymously, the Court considers factors such as: (1) whether the plaintiff is challenging
governmental activity; (2) whether prosecution of the action will compel plaintiff to disclose
information “of the utmost intimacy”; (3) whether the litigation compels plaintiff to disclose an
intention to violate the law, thereby risking criminal prosecution; and (4) whether plaintiff is a minor.
See Doe v. Porter, 370 F.3d 558, 560 (6th Cir. 2004).
Failure by a plaintiff to obtain court approval to proceed anonymously deprives the
Court of jurisdiction to hear the matter. See Marsh, 123 Fed. Appx. At 636-37 (“[fjailure to seek
permission to proceed under a pseudonym is fatal to an anonymous plaintiffs case, because. . .the
federal courts lack jurisdiction over the unnamed parties, as a case has not been commenced with
respect to them”).

While Defendants have not expressed any objection to Plaintiff proceeding

anonymously, the Court nevertheless has an obligation to address the matter given that it affects the
Court’s jurisdiction.
While Plaintiff is arguably challenging government activity, none of the other factors
weigh in favor of her request. The second factor, whether prosecution of the action will compel
Plaintiff to disclose information “of the utmost intimacy,” concerns “matters of a sensitive and highly
personal nature, such as birth control, abortion, homosexuality or the welfare rights of illegitimate
children or abandoned families.” G.E.G. v. Shinseki, 2012 WL 381589 at *2 (W.D. Mich., Feb. 6,
2012). While Plaintiff repeatedly asserts the conclusion that her free speech rights will be chilled if
she is required to pursue this action openly, she fails to persuade the Court that pursuit of her claims
will compel Plaintiff to reveal information “of the utmost intimacy.”

2

Case l:18-cv-01231-JTN-ESC ECF No. 20, PagelD.107 Filed 01/04/19 Page 3 of 3

The Court recognizes that prosecution of this action appears to implicate Plaintiffs
medical condition and/or treatment. While the Court is sympathetic to Plaintiffs desire to maintain
a certain level of privacy vis-a-vis her medical impairments and/or treatment, Plaintiff can request that
such records be submitted to the Court under seal pursuant to Local Rule of Civil Procedure 10.
Accordingly, this factor weighs against Plaintiffs request. The final two factors both weigh against
Plaintiffs request as neither are applicable to Plaintiffs circumstance.
CONCLUSION
In sum, consideration of the relevant factors weighs against Plaintiffs request to
proceed anonymously. Accordingly, the undersigned recommends that Plaintiffs Motion to Retain
Anonymity. (ECF No. 12), be denied. The undersigned further recommends that if Plaintiff fails to
amend her complaint, to identify herself by her legal name, within twenty-one (21) days after
the adoption of the aforementioned recommendation, that this matter be dismissed for lack of
jurisdiction.
OBJECTIONS to this Report and Recommendation must be filed with the Clerk of
Court within fourteen (14) days of the date of service of this notice. 28 U.S.C. § 636(b)(1)(C).
Failure to file objections within the specified time waives the right to appeal the District Court’s order.
See Thomas v. Am, 474 U.S. 140 (1985); United States v. Walters, 638 F.2d 947 (6th Cir.1981).
Respectfully submitted,

Dated: January 4, 2019

/s/ Ellen S. Carmodv
ELLEN S. CARMODY
U.S. Magistrate Judge

3

Nos. 19-1566/1714

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Jul 10, 2020
DEBORAH S. HUNT, Clerk

JANE DOE,
Plaintiff-Appellant,
v.
BEN CARSON, AS EXECUTIVE DIRECTOR, U.S. DEPARTMENT
OF HOUSING AND URBAN DEVELOPMENT, ET AL„
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: SUTTON, McKEAGUE, and NALBANDIAN, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the cases. The petition then was circulated to the
full court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

